FEB-21-2007 13:56 FROM:                                                        TO:2025860099                P.002/004


   DOEF 1325.8
   (08-93)
   United States Goverment                                                           Department of Energy


   memorandum
          DATE:    February 21, 2007                              Audit Report Number: OAS-L-07-07
      REPLY TO
       ATTN OF:    IG-321 (A06LV019)
      SUBJECT:     Audit Report on "Device Assembly Facility Utilization"
             TO:   Deputy Administrator for Defense Programs, NA-10


                   INTRODUCTION AND OBJECTIVE

                   The Nevada Test Site's Device Assembly Facility (DAF) is a 100,000 square foot facility,
                   built in the early 1990s at a cost of approximately $100 million to consolidate all nuclear
                   explosive assembly operations and provide a state-of-the-art environment for assembling
                   test devices in preparation for underground testing. In 1992, shortly after the facility was
                   completed, a moratorium was placed on underground nuclear testing. Since the
                   moratorium, the DAF has been largely undcrutilized. Building logs indicate that in the past
                   four years, for example, utilization of DAF buildings has ranged from 9 to 48 percent.

                   Program activities are underway that will increase DAF utilization. Specifically, the
                   National Nuclear Security Administration (NNSA) is relocating the criticality experiments
                   capability and category I and II special nuclear material from Los Alamos National
                   Laboratory's Technical Area 18 (TA-18) to the Criticality Experiments Facility (CEF)
                   being constructed at the DAF. Responding to congressional concerns over DAF
                   utilization, NNSA reported to the Congress in May 2003 that it evaluated conducting
                   certain weapons dismantlements and small-scale weapons surveillance activities, such as
                   accelerated aging, at the DAF.

                   Beginning in fiscal year 07, DAF operating costs are expected to exceed $34 million
                                                                                                          to
                   achieve mission capability to support the limited activities currently at the DAF, as well as
                   the criticality experiments mission. Our objective was to determine whether NNSA
                                                                                                         has
                   identified viable missions to fully utilize the DAF.

                   CONCLUSIONS AND OBSERVATIONS

                   While transferring the TA-18 mission will increase DAF utilization, it will not filly
                                                                                                         utilize
                   the facility. Even after the CEF construction is complete in 2010, projections indicate
                                                                                                           that
                   25 percent of the DAF's operational buildings will not be utilized.

                   NNSA explored other missions cited in the 2003 report and, established the DAF Steering
                   Group to review potential missions including:
FEB-21-2007 13:56 FROM:                                                        TO:2025860099                 P. 03/004




                    .       Interim storage of special nuclear material from Sandia National Laboratories
                            (Sandia) related to nuclear material consolidation throughout the weapons complex.
                            As of the end of 2006, the Steering Group approved, in part, the storage of specified
                            quantities of materials from Sandia; however, NNSA has not calculated the related
                            infrastructure costs,

                    *       Temporary storage of uranium from the Y-12 site. In 2006, the Steering Group
                            deferred this proposal, since NNSA expressed concern that the DAF would become
                            a designated nuclear material storage facility as opposed to an operational facility
                            that utilizes its unique capabilities. The current status is pending for this proposed
                            mission.,

                Finally, in December 2006, NNSA directed the Nevada Site Office to plan and implement
                an effort to conduct nuclear weapon operations by September 2009 at the DAF.
                Specifically, NNSA intends to use the DAF for low-volume efforts complementing the
                Pantex Plant's capabilities as a primary assembly and disassembly site. NNSA has not
                defined the scope of activities to be carried out at the.DAF through this initiative.
                Accordingly, NNSA does not currently lkow whether additional activities will be needed
                for the DAF to achieve full utilization.

                 We noted that NNSA efforts to identify and assess the suitability of missions for the DAF
                 have been hampered by the lack of a cost recovery model. As a result, NNSA cannot
                 reliably determine whether mission, activities can be perfonnred more cost effectively by
                 transferring them from their current locations to the DAF. NNSA is currently developing a
                 cost model that it expects to be complete by mid 2007. Completing the cost model will
                 assist NNSA in. assessing future mission costs associated with transferring low-volume
                 weapons dismantlement/surveillance work to the DAF, including costs associated with any
                 additional infrastructure, personnel, transportation, and security requirements.

                 SUGGESTED ACTIONS

                 We suggest that the Deputy Administrator for Defense Programs ensure:

                        *   Development of the cost recovery model is completed;
                        *   Use of the model to determine which low-volume weapons
                            dismantlement/surveillance work should be transferred to the DAF; and,
                        *   Re-evaluation of DAF's utilization after beginning CEF operations and transferring
                            low-volume weapons work.

                 SCOPE AND METHODOLOGY

                 We performed the audit between May 2006 and January 2007 at the Nevada Site Office in
                 North Las Vegas, Nevada and at the Nevada Test Site in Mercury, Nevada.

                 To accomplish the audit objective, we reviewed DAF cost data from October 2002 through
                 May 2006 and building access logs for projects and missions from October 2002 through
                                                           2
SFEB-21-2007 13:57 FROM:                                                   TO:2025860099                P.004'004




                 July 2006. We also reviewed Department policies regarding building utilization and
                 interviewed key personnel.

                 The audit was conducted in accordance with generally accepted government auditing
                 standards for performance audits and included tests of internal controls and compliance
                 with laws and regulations to the extent necessary to satisfy the audit objective. Because
                 our review was limited, it would not necessarily have disclosed all internal control
                 deficiencies that may have existed at the time of our audit. During the audit, we assessed
                 the Department's compliance with the Government Performance and Results Act of 1993,
                 and found that NNSA did not have any performance measures associated with the audit
                 objective. We did not rely extensively on computer processed data to support our analyses.

                 We discussed the contents of this report with Policy and Internal Controls Management on
                 January 26, 2007, and they waived anr exit conference. Since no formal recommendations
                 are being made in this Letter Report, a formal response is not required. We appreciate the
                 cooperation of your staff throughout the audit.



                                                             Joanne Hill, Director
                                                             National Nuclear Security Administration
                                                               Audits Division
                                                             Office of Inspector General

                 cc:   Team Leader, Audit Liaison Team, CF-1.2
                       Audit Liaison, NNSA/Nevada Site Office
                       Chief of Staff




                                                      3
